September 28, 2004
Report No. 04-040


Division of Supervision and Consumer
Protection’s Regional Office Structure




            AUDIT REPORT
                                          TABLE OF CONTENTS
BACKGROUND ................................................................................................................1

RESULTS OF AUDIT.......................................................................................................3

CHANGES IN DSC’s SUPERVISORY APPROACH AND IN
THE BANKING INDUSTRY SINCE THE 1980’s ........................................................5

     Process Redesign Programs Change DSC’s Approach to Bank Supervision ......12
     Increased Use of Technology Affects the Examination Process ............................16
     Effects of Consolidation on the FDIC ......................................................................18
     Changes in Other Federal Agencies’ Regional Office Structures .........................19

CONCLUSION AND RECOMMENDATION .............................................................20

     Recommendation........................................................................................................21

CORPORATION COMMENTS AND OIG EVALUATION......................................21

APPENDIX I:              OBJECTIVE, SCOPE, AND METHODOLOGY ..........................24

APPENDIX II: NUMBER OF FDIC-INSURED INSTITUTIONS IN
             1987 AND 2003...................................................................................26

APPENDIX III: CHRONOLOGY OF SIGNIFICANT EVENTS.............................29

APPENDIX IV: CORPORATION COMMENTS ......................................................32

APPENDIX V:              MANAGEMENT RESPONSE TO RECOMMENDATIONS.......35

TABLES
    Table 1: Number of FDIC-Insured and -Supervised Institutions, Problem
             Institutions, and Failed Institutions for Selected Years Since 1987..........5
    Table 2: Comparative Earnings and Equity Capital Ratios for Selected Years
             Since 1987 ...............................................................................................10
    Table 3: Examinations Processed at Regional and Field Offices..........................14
    Table 4: Applications Processed at Regional and Field Offices ...........................14
    Table 5: Total Regional Office Staffing................................................................15
    Table 6: Assistant Regional Directors and Case Managers per Year....................15
    Table 7: Staffing at Boston and Memphis Area Offices .......................................16

FIGURES
    Figure 1:         Total Number of FDIC-Insured Institutions From 1987 to 2003 .............6
    Figure 2:         FDIC-Supervised Institutions From 1987 to 2003 ...................................7
    Figure 3:         Total Number of Problem Institutions From 1987 to 2003 ......................8
    Figure 4:         Number of Failed Institutions From 1987 to 2003 ...................................9
    Figure 5:         Assets of FDIC-Insured Commercial Banks From 1980 to 2003...........10
    Figure 6:         Average Assets of FDIC-Insured Commercial Banks ............................18
    Figure 7:         Number of FDIC-Insured Banks With Total Assets Exceeding
                      $10 Billion...............................................................................................19
FDIC-supervised institutions with various consumer protection-related requirements. The field
offices, which report to the regional offices, are responsible for conducting various institution
examinations.

Generally, regional office personnel are responsible for ensuring that the supervisory strategies
for institutions within their geographic boundaries are appropriate and revised as needed. This
process requires ongoing coordination with DSC field office supervisors and state and federal
regulatory agencies and effective use of off-site monitoring tools. In addition, the regional
offices are responsible for performing activities related to the review, analysis, and processing of
reports of examination and applications,3 and for preparing miscellaneous correspondence
directed to the Washington Office, state regulatory authorities, other federal regulatory agencies,
and financial institutions.

In addition to supporting the performance of safety and soundness examinations as required by
law, the regional offices provide specialists to help examiners address certain risks pertaining to
information systems, trusts, accounting, and capital markets. The regional offices also provide
technical guidance to field examiners and case managers for special situations, examinations, and
investigations and provide feedback to field examiners on the quality and content of reports of
examination.

Since the FDIC implemented its current regional office structure, the banking industry has been
marked by tremendous changes:

    •    Consolidation has been a trend since 1985, when there were over 14,000 community
         banks,4 compared to just over 7,000 today.

    •    In the mid-1980’s, the top 10 banking organizations held 16 percent of industry deposits,
         while today, these organizations hold over 40 percent of deposits.

    •    During the 1980’s, there was virtually no growth in total earnings for the commercial
         banking industry – earnings hovered at about $15 billion. By contrast, during the 1990’s,
         annual earnings grew almost fivefold to just over $70 billion by the late 1990’s.

    •    Banks continue to thrive, earning a record of nearly $120.6 billion in 2003. The return on
         assets (ROA) for 2003 was 1.38 percent, surpassing the previous all-time high of 1.30
         percent in 2002.

According to some FDIC studies, the consolidation trend in banking suggests that the largest
institutions may grow even larger, and the number of community banks could continue to decline
to half as many as there are today. Much of the positive growth related to earnings has occurred




3
  Banks are required to submit applications to their primary federal regulator for certain activities that include,
among other things, opening or relocating branch offices, changing control of the bank, and merging with or
acquiring another financial institution.
4
  A community bank is a small local bank that serves the needs of one community or a series of communities in a
close geographic area. Typically, these banks have assets totaling under $1 billion.
                                                          2
at the larger institutions, thus reinforcing the consolidation trend. The consolidation trend will
ultimately pose significant challenges for the FDIC in its role as insurer and supervisor of
financial institutions.

In addition to the quantitative changes in the banking industry, there have been significant
changes in information technology and laws and regulations impacting the institutions’
operations. Institutions have increasingly made banking services and data available to customers
through information technology such as automated teller machines and transactional Web sites.
In accordance with the Bank Secrecy Act (BSA), institutions must file reports for cash
transactions exceeding $10,000 with the Internal Revenue Service.5 Title III of the United and
Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct
Terrorism Act of 2001 (USA PATRIOT Act) places considerable responsibilities on insured
depository institutions to monitor foreign entities and individuals and cooperate with law
enforcement officials in a timely manner. The DSC regions also direct examination efforts
related to institutions’ compliance with BSA and the USA PATRIOT Act.

The FDIC has been continuously downsizing since 1992, due, in large part, to the precipitous
decline in bank failures and the continuing trend of consolidation within the banking industry.
Total FDIC employment (including the former Resolution Trust Corporation6) has declined 75
percent from approximately 23,000 in 1992 to about 5,300 at the end of 2003.


RESULTS OF AUDIT

The DSC has not made a significant change to its regional office structure since 1987, even
though the industry DSC supervises and its supervisory approach have experienced significant
changes. Some examples of changes that have taken place include the following:

    •    FDIC-insured institutions have decreased from 17,345 in 1987 to 9,182 as of
         December 31, 2003 – a 47 percent decline even with over 2,000 newly chartered
         institutions during that time period.

    •    FDIC-supervised institutions have decreased from 8,450 in 1987 to 5,318 as of
         December 31, 2003 – a 37 percent decline.

    •    Failures of banks and savings associations have declined from a peak of 534 in 1989 to
         3 during 2003.7




5
  Bank Secrecy Act, Title II, Reports of Currency and Foreign Transactions, requires a financial institution to file a
Currency Transaction Report with the Internal Revenue Service for each cash transaction over $10,000 or multiple
cash transactions by an individual in 1 business day, aggregating over $10,000.
6
  The Resolution Trust Corporation, or RTC, was a federal agency created by the Financial Institutions Reform,
Recovery, and Enforcement Act of 1989 (FIRREA) to oversee the liquidation of assets of insolvent savings and loan
associations.
7
  As of the date of this report, four FDIC-insured banks had failed in 2004.
                                                          3
    •    The number of insured problem financial institutions8 has decreased from 2,081 in 1987
         to 106 in 2003 – a 95 percent decline. As of March 31, 2004, there were 114
         FDIC-insured problem institutions with total assets of $30 billion.

    •    Total assets at FDIC-insured institutions have increased from about $3.0 trillion in 1987
         to over $7.6 trillion at the end of 2003 – a 153 percent increase.

    •    The average ROA for FDIC-insured commercial banks has increased from 0.10 percent
         in 1990 to1.38 percent (an all-time high) as of December 31, 2003.

    •    The average equity capital ratio for FDIC-insured commercial banks has increased from
         6.02 percent in 1987 to 9.1 percent as of December 31, 2003.

    •    The use of information technology has increased dramatically, particularly through
         transactional Web sites.

    •    The FDIC has implemented risk-focused examinations and has delegated many
         responsibilities from its regional offices to its field offices.

    •    Efforts to combat terrorist financing have increased since September 11, 2001.

The banking industry is financially stronger and significantly more consolidated today than it
was in 1987. The ongoing consolidation of the banking industry has led to a few very large
institutions holding an increasingly significant share of banking assets. Currently, the combined
assets of the 18 largest insured banking organizations account for more than half of the assets of
insured banking companies in the United States. The FDIC is the primary federal regulator for
2 of the 18 largest institutions as of March 31, 2004.

To keep abreast of industry changes, DSC has performed a number of studies (process redesigns)
that have changed DSC’s approach to examinations and supervision. Most notable was the
implementation of a risk-focused examination process that has streamlined examination
procedures at banks with low-risk profiles. In addition, DSC field offices now perform many
functions that historically have been performed by regional offices such as examination review
and processing, review of other regulators’ reports, processing of applications, and serving as the
contact point for bankers. Additionally, DSC is testing a “relationship manager” program that
could delegate even more responsibility to the field offices. We estimated that the supervisory
responsibilities for about 70 percent of the FDIC-supervised institutions could ultimately be
performed at the field office level.

Recognizing the need for changes, the OCC and the OTS realigned their district (regional) office
structures in 2002 and 2003, respectively, in response to continuing consolidation in the banking
system and to take advantage of advances in technology and changes in the way these regulators
managed their nationwide network of examiners and field offices. The OCC reorganized its field
operations to eliminate a layer of management by delegating more authority to the agency’s field
offices, which are closer to the banks it supervises. As part of the OCC’s reorganization, it

8
  The FDIC defines a problem financial institution as any insured institution that has been assigned a composite
rating of “4” or “5” under the Uniform Financial Institution Rating System by its primary federal regulator or by the
FDIC if it disagrees with the primary federal regulator's rating.
                                                          4
reduced the number of its district offices from six to four. The OTS restructured its regional
offices (1) to achieve greater operating efficiencies by realigning its regional structure into four
supervisory regions (down from five), consolidating its administrative functions in Washington,
and reducing staff to meet reduced workload demands and (2) to achieve a balanced budget.

Industry, technology, and security changes and the changes in DSC’s approach to its supervisory
responsibilities could alter the future role of the regional offices and warrant reconsideration of
the current geographic and organizational structure of the regional offices. DSC should reassess
its current regional and area office structure to determine whether it is the most optimal
alignment of resources for accomplishing its mission. An independent comprehensive review of
regional office activities to ensure their relevance and fit for the 21st century and their relative
priority is needed. While enhanced effectiveness and efficiency would be the primary
considerations in assessing restructuring alternatives, economies could likely be achieved
through the process.

CHANGES IN DSC’s SUPERVISORY APPROACH AND IN THE BANKING
INDUSTRY SINCE THE 1980’s

The significant changes in the banking industry over the past 2 decades raise some questions
about whether the FDIC’s current regional office structure is appropriate. The changes have
resulted in fewer FDIC-insured and FDIC-supervised banks and a precipitous decline in the
number of problem and failed institutions as shown in Table 1.

Table 1: Number of FDIC-Insured and -Supervised Institutions, Problem Institutions, and
Failed Institutions for Selected Years Since 1987
                                                                            Percent of
   Number of Institutions         1987       1989    1990      2003       Decline from
                                                                          1987 to 2003
Insured *                         17,345      15,802 15,162      9,182         47%
Supervised *                       8,450       7,969  7,811      5,318         37%
Problem                            2,081       1,632  1,492        106         95%
Failed                               262         534    382          3         99%
Source: The FDIC’s Historical Statistics on Banking, Commercial and Savings Institutions Bank Reports.
*The FDIC-insured and -supervised banks include institutions insured by the Bank Insurance Fund (BIF) and
Savings Association Insurance Fund (SAIF).

During the late 1980’s, a spate of bank failures contributed to the decline in FDIC-insured
financial institutions. During the 1990’s, a number of mergers and acquisitions also contributed
to the decline in the number of FDIC-insured financial institutions. In fact, the number of
FDIC-insured financial institutions has declined each year since 1987 as depicted in Figure 1 on
the next page (see Appendix II for a state-by-state analysis) and, on average, each region is
supervising 46 percent fewer institutions now in comparison to 1987.




                                                       5
Figure 1: Total Number of FDIC-Insured Institutions From 1987 to 2003
                   20,000


                   18,000 17,345
                                   16,575
                                            15,802
                   16,000
                                                     15,162
                                                              14,488
                                                                       13,856
                   14,000                                                       13,222
                                                                                         12,604
                                                                                                  11,972
                   12,000                                                                                  11,456
                                                                                                                    10,923
                                                                                                                             10,464 10,223
 Number of Banks




                                                                                                                                             9,904
                   10,000                                                                                                                            9,615
                                                                                                                                                             9,354 9,182


                    8,000


                    6,000


                    4,000


                    2,000


                       0
                            1987   1988     1989     1990     1991     1992     1993     1994     1995     1996     1997     1998   1999     2000    2001    2002   2003
                                                                                                Year

Source: The FDIC’s Historical Statistics on Banking, Commercial and Savings Institutions Bank Reports.

Additionally, the number of FDIC-supervised institutions has declined by over 3,100
(40 percent) since 1987, as shown in Figure 2 on the next page.




                                                                                            6
Figure 2: FDIC-Supervised Institutions From 1987 to 2003
                    9,000
                            8,450
                                    8,181
                                            7,969
                    8,000                           7,811
                                                            7,606
                                                                    7,431
                                                                            7,277
                                                                                    7,008
                    7,000
                                                                                             6,633
                                                                                                     6,375
                                                                                                             6,118
                    6,000                                                                                            5,867
                                                                                                                             5,743
                                                                                                                                     5,616
  Number of Banks




                                                                                                                                             5,486
                                                                                                                                                     5,353 5,318

                    5,000



                    4,000



                    3,000



                    2,000



                    1,000



                       0
                            1987    1988    1989    1990    1991    1992    1993    1994     1995    1996    1997    1998    1999    2000    2001    2002   2003
                                                                                            Year

Source: The FDIC’s Historical Statistics on Banking, Commercial and Savings Institutions Bank Reports.



Further, in the late 1980’s there were over 1,500 problem banks in the country. However, the
number of problem banks has dropped to below 140 every year since 1996, as shown in Figure 3
on the next page.




                                                                                       7
Figure 3: Total Number of Problem Institutions From 1987 to 2003
                    2,500




                            2,081

                    2,000
                                    1,849


                                            1,632

                                                    1,492
                    1,500                                   1,426
  Number of Banks




                                                                    1,063

                    1,000




                                                                            572

                     500
                                                                                   318
                                                                                            193
                                                                                                     117                                114    136    106
                                                                                                            92     84     79      94

                       0
                            1987    1988    1989    1990    1991    1992    1993   1994    1995      1996   1997   1998   1999   2000   2001   2002   2003
                                                                                          Year End


Source: The FDIC’s Historical Statistics on Banking, Commercial and Savings Institutions Bank Reports.

Following the trend of declining problem institutions, institution failures are at historical lows
not seen since 1940 through 1975 when bank failures averaged less than 7 per year. It has been
close to 10 years since the banking industry experienced more than 15 failures in 1 year, as
shown in Figure 4, which follows.




                                                                                      8
Figure 4: Number of Failed Institutions From 1987 to 2003
                    600


                                        534


                    500
                                 470
  Number of Banks




                    400                        382




                    300
                                                      271
                          262



                    200                                      181




                    100

                                                                    51

                                                                           15        8                           8                   11
                                                                                            6      1      3             7      4             3
                     0
                          1987   1988   1989   1990   1991   1992   1993   1994     1995   1996   1997   1998   1999   2000   2001   2002   2003
                                                                                  Year

Source: The FDIC’s Historical Statistics on Banking, Commercial and Savings Institutions Bank Reports.

Processing reports of examination and handling matters that deal with problem and failing
institutions requires additional regulatory scrutiny, ultimately to preserve the BIF and SAIF.
DSC regional office personnel typically become heavily involved in problem and failing
institutions as a result of enforcement actions. The personnel also prepare summary comments
and problem bank memorandums, necessitating increased communication with DSC Washington
Office personnel.

The decline in the aggregate number of financial institutions is largely attributed to consolidation
within the industry. Many institutions have been absorbed through mergers and acquisitions
even though over 2,000 newly chartered institutions have been established since 1990. The
FDIC reports that, through consolidation, a financially stronger and generally healthier industry
has developed. Since 1990, the banking industry has reported stronger earnings and capital
levels.

Table 2 on the next page depicts the improvement in the banking industry using earnings and
equity capital as indicators for measuring financial wellness.




                                                                                9
Table 2: Comparative Earnings and Equity Capital Ratios for Selected Years Since 1987
    Percentage         1987        1990       1995          2000          2003
Return on Assets      0.10%       0.48%       1.17%         1.18%         1.38%
Return on Equity      1.50%       7.50%      14.70%        13.99%       15.32%
Equity Capital Ratio  6.02%       6.45%       8.11%         8.49%        9.10%
Sources: The FDIC Quarterly Banking Profile for Returns on Assets and Equity and the FDIC’s Historical
Statistics on Banking for equity capital ratios.


Banks have not only become more profitable but have also experienced significant growth in
assets in the past 2 decades, while the number of banks has declined. Industry assets have more
than tripled since 1984, and at the end of 2003, FDIC-insured commercial banks had combined
assets in excess of $7.6 trillion, as illustrated in Figure 5 below.

 Figure 5: Assets of FDIC-Insured Commercial Banks from 1980 to 2003
     $8,000



     $7,000



     $6,000
                                                                                                                $7,602 / 2003


     $5,000
   B
   i
   l
   l $4,000
   i
   o
   n
   s $3,000                                           $3,389 / 1990


                        $2,509 / 1984
     $2,000



     $1,000



        $0
         1980 1981 1982 1983 1984 1985 1986 1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003
                                                                Year End


Source: The FDIC’s Historical Statistics on Banking.

The examination processes for monitoring and evaluating information technology (IT) risks,
consumer protection, and compliance with the BSA and USA PATRIOT Act have also changed
significantly. Changes in these processes have required a shift in the skill sets needed to evaluate
and monitor risk within these areas.




                                                              10
According to the FDIC, no area of banking has changed as significantly during the past 10 years
as the IT area.9 Insured institutions offer their banking services to customers through automated
teller machines and electronic Web sites for transactional activities. The FDIC’s primary
concern about the financial industry’s use of IT is the potential risk of loss to the insurance funds
from high-cost bank failures if risks are not adequately managed and controlled.10 In its efforts
to evaluate risks in the IT environment due to increased and complex data systems and delivery
channels, the FDIC conducts IT examinations designed to assess an institution’s IT risks. Also,
DSC conducts examinations of nonbank service providers that develop and support e-banking
applications.

The FDIC is legislatively mandated to enforce various statutes and regulations regarding
consumer protection and civil rights with respect to state-chartered, nonmember banks and to
encourage community investment initiatives by these institutions. Some of the more prominent
laws related to this area include the Truth in Lending Act, Fair Credit Reporting Act, Real Estate
Settlement Procedures Act, Fair Housing Act, Home Mortgage Disclosure Act, Equal Credit
Opportunity Act, Community Reinvestment Act (CRA) of 1977, and Gramm-Leach-Bliley Act.
The Corporation accomplishes its mission related to these laws by conducting compliance and
CRA examinations and taking enforcement actions to address compliance violations. In 2003,
the FDIC revised its approach to examining institutions for compliance with consumer protection
laws and regulations. Under the new approach, FDIC compliance examinations combine a
risk-based examination process with an in-depth evaluation of an institution’s compliance
management system, resulting in a top-down, risk-focused approach to these examinations. The
new examination approach recognizes that the banking industry’s compliance responsibilities
continue to grow and become more complex with changes in financial products and services.

The BSA and the USA PATRIOT Act have significantly affected insured institutions’ operations
by requiring institutions to be vigilant in the prevention, detection, and prosecution of
international money laundering and the financing of terrorism. In accordance with BSA Title II,
an institution must file a Currency Transaction Report with the Internal Revenue Service for each
cash transaction over $10,000 or multiple cash transactions by an individual in one business day,
aggregating over $10,000. The BSA also requires an institution to file a Suspicious Activity
Report with the Treasury Department when suspected money-laundering activity or BSA
violations occur. USA PATRIOT Act, Title III, provisions include requirements related to
special due diligence, correspondent accounts, concentration accounts, verification of customer
identification, and information sharing. Further, Title III places considerable responsibilities on
insured depository institutions to monitor foreign entities and individuals and to cooperate with
law enforcement officials in a timely manner. The FDIC and other financial institution
regulatory agencies work together with the Treasury Department’s Financial Crimes
Enforcement Network (FinCEN) to issue guidance implementing these statutory requirements.
The FDIC is responsible for monitoring compliance with the BSA and USA PATRIOT Act by
the financial institutions that it supervises.11

9
  FDIC Outlook, fall 2003 edition, Chicago Regional Perspectives, Improved Security is Vital as Information
Technology Grows More Complex. FDIC Outlook is published quarterly by the FDIC’s Division of Insurance and
Research as an information resource on banking and economic issues for insured financial institutions and financial
institution regulators.
10
   Office of Inspector General, Audit Report No. 04-022, FDIC’s Information Technology Examination Program,
June 15, 2004.
11
   Office of Inspector General, Audit Report No. 03-037, The FDIC’s Implementation of the USA PATRIOT Act,
September 5, 2003.
                                                        11
Process Redesign Programs Change DSC’s Approach to Bank Supervision

The FDIC has redesigned its approach to bank supervision, particularly since 2000 (see
Appendix III for organizational and procedural changes since 1992). During 2000, DSC
recognized the need to adjust to a changing banking industry and began a series of process
redesign efforts to evaluate its own organization and processes. The Process Redesign program
was divided into several phases, focusing on strategic changes in examination processes and
economies in personnel and infrastructure.

In July 2001, the Process Redesign Infrastructure Work Group (work group) issued a report on
its study of DSC’s field office infrastructure. The work group consisted of only DSC personnel.
The study resulted in minimal changes to DSC’s structure and a recommendation to consolidate
field offices that were co-located either in the same building or metropolitan area. Also, DSC
executives conducted an infrastructure review of DSC’s field offices. The executives’
conclusions were similar, with recommendations for closing 6 of the 90 offices by consolidating
8 field offices into 4 offices and closing 2 satellite offices. In addition, the FDIC’s internal
reorganization order, effective June 30, 2002, designated the Boston and Memphis Regional
Offices as area offices reporting to the New York and Dallas Regional Offices, respectively.

In 2001, Process Redesign I made recommendations to streamline the pre-examination,
supervision, and applications processes. Some of the changes included: streamlining the
pre-examination process and loan reviews, revising the report of examination format, using
software packages to speed up and standardize routine examination processes, training examiners
to review large and complex data service providers and vendors, and developing a
comprehensive contingency plan for major technology problems. DSC estimated that these
changes saved resources equivalent to the work of about 95 examiners.

Process redesign changes also affected the examination process, including:

   •   implementation of the Maximum Efficiency Risk-focused Institution-Targeted (MERIT)
       Guidelines examination program (discussed below),
   •   delegations of authority from regional offices to field offices, and
   •   a pilot test of a Relationship Manager Program (discussed later in the report).

MERIT Examination Guidelines

During Process Redesign II, the MERIT Guidelines were developed for safety and soundness
examinations. (Similar risk-based approaches have been implemented for IT and trust
examinations to promote the efficient use of examination resources and have been considered for
compliance examinations.) The MERIT Guidelines reduced the time and effort spent on
institutions with low-risk profiles that did not need much oversight so that examination efforts
could be spent on institutions that needed more attention. Effective for examinations after
March 31, 2002, the FDIC implemented the MERIT Guidelines for “1” or “2” rated, “Well-
Capitalized” banks with total assets of $250 million or less (the threshold was subsequently
increased to $1 billion in January 2004) that also met certain other criteria. One of DSC’s
Corporate Performance Objectives for 2002 was to reduce, by 20 percent, the average time spent
conducting safety and soundness examinations of banks with “1” and “2” ratings and with under


                                               12
$250 million in assets.12 As of December 31, 2003, approximately 3,600 (68 percent) of the
FDIC’s supervised institutions were potentially eligible for the MERIT examination program.

Beginning in 2003, as a result of Process Redesign III, DSC delegated various work products for
certain low-risk institutions to field office supervisors and supervisory examiners. The work
products were previously processed at DSC regional and area offices. These duties included
examination report processing, general correspondence, and certain applications for these
institutions and off-site reviews. Regional and area offices still handle more complex banks or
banks with high-risk profiles, enforcement actions, and certain applications. Further, DSC
changes in the bank supervisory process have included a Dedicated Examiner Program13 and the
decision to test a Relationship Manager Program.

Delegations of Authority from Regional Offices to Field Offices

DSC’s delegation of certain risk management functions to the field level in 2003 was consistent
with the FDIC’s goal of more effectively supervising and serving a rapidly changing banking
industry. DSC concluded that, within well-defined parameters, the field-level has both the
capability and the capacity to process various work products previously processed at the
regional/area office level. The result was a realignment of responsibilities and streamlining of
many of DSC’s core risk management functions, placing greater authority and responsibility on
lower levels within the organization while preserving a high degree of responsiveness to the
industry and maintaining appropriate attention to risk. According to DSC transmittal number
02-049:

         Field Supervisors and Supervisory Examiners will assume many of the duties
         transitioned, including the review, processing, and signature of Reports of Examination
         (ROE); the processing and approval of certain applications; the processing of general
         correspondence; and the conducting of offsite reviews. Regional/Area Office Case
         Managers/Specialist will continue to have primary responsibility for the various risk
         management functions relating to more complex or higher-risk profile banks, including
         review and processing of ROEs (including separate cover specialty ROEs), enforcement
         actions, and more complex applications.

The transmittal memorandum further stated:

         All banks meeting MERIT criteria that are not part of organizations transcending the
         geographic boundaries of Regional/Area Offices and that do not have total assets
         exceeding the $1 billion and $10 billion signing authority for CG-14 and CG-15 Field
         Supervisors, respectively, will have the following risk management functions performed
         at the Field-level:

         •   Reviewing and processing of ROEs prepared by the FDIC or State Authority.
         •   Reviewing and processing of certain ROEs prepared by other Federal regulators.


12
  Division of Supervision Memorandum, Transmittal Number 2002-017, March 27, 2002.
13
  The FDIC dedicated eight examiners to the largest insured depository institutions in September 2002. The
examiners work closely with the resident examination staff of primary supervisors and the institutions’ personnel.
They have access to information about the risk and trends in these institutions.
                                                         13
        •   Processing branch-related applications (new branches and relocation of
            branch/main offices).
        •   Processing correspondence relating to any relationship assigned to the Field.
            Conducting offsite reviews for any bank that is part of a relationship assigned to
            the Field.
        •   Reviewing and processing Holding Company Inspection Reports prepared by the
            Federal Reserve or State Authority pertaining to a relationship assigned to the Field.
        •   Functioning as a point of contact.
        •   Performing Banker Outreach activities on assigned institutions.

As part of these changes, greater responsibility for bank supervision was delegated to the field
offices. To see how these changes may be impacting the activities of the field office supervisors
and regional office case managers, we obtained from DSC application and examination data for
the year 2003 to June 30, 2004. The processing of applications and ROEs continues to shift from
the regional offices to the field offices as a result of the delegations. The percentages for
processing ROEs and applications increased in the field offices and decreased in the regional
offices as shown in Tables 3 and 4.

Table 3: Examinations Processed at Regional and Field Offices
                            Field Office                       Regional Office
     Year          Total Exams        Percentage       Total Exams       Percentage
      2003            1,927             31.89%             4,116            68.11%
2004 (as of 6/30)     1,023             38.10%             1,662            61.90%
Source: DSC’s schedule of examinations.

Table 4: Applications Processed at Regional and Field Offices
                             Field Office                        Regional Office
     Year          Total Applications    Percentage Total Applications       Percentage
      2003                621             20.93%              2,346            79.07%
2004 (as of 6/30)         434             25.44%              1,272            74.56%
Source: DSC’s schedule of applications.

We obtained staffing data from DSC to see the effects that delegating work could have on the
regional office structure. We found that overall regional office staffing has decreased by 25
percent from year-end 2000 levels as shown in Table 5 on the next page.




                                                 14
Table 5: Total Regional Office Staffing
         REGION                 2000                          2001                 2002                2003
 Atlanta                         80                            76                   61                  62
 Boston                          53                            52                   31                  38
 Chicago                         91                            88                   77                  71
 Dallas                          75                            71                   63                  59
 Kansas City                     108                           106                  90                  86
 Memphis                         70                            51                   39                  43
 New York                         90                           86                   73                  68
 San Francisco                   93                            90                   74                  66
 Total Employees                 660                          620                   508                 493
Source: DSC’s staffing schedules at year end for 2000 through 2003.

Further, we reviewed Case Manager and Assistant Regional Director staffing nationwide, as
shown in Table 6.

Table 6: Assistant Regional Directors and Case Managers per Year
               Category                        1990         2000           2001           2002           2003
 Assistant Regional Directors                   30            35             36            27             28
 Case Managers (Risk Management)                NA           206            197           152            159
Source: DSC’s staffing schedules for years 2000 through 2003. Staffing tables for 1990 and earlier were not
available. The numbers from 1990 were based on information we obtained from FDIC publications.

By delegating tasks from the regional and area offices to the field offices, DSC provided its
regional and area office staff opportunities for more efficient use of their time. Yet, the number
of assistant regional directors (ARD) has not declined significantly. Also, the number of ARDs
remained steady after the delegation of tasks to the field offices in 2003. DSC noted that it had
30 ARDs in 1990 with 7,811 FDIC-supervised institutions, while in 2003, DSC had 28 ARDs
with 5,318 FDIC-supervised financial institutions. Although the number of case managers in the
area and regional offices decreased 26 percent from 2000 to 2002, the number of case managers
increased from 152 in 2002 to 159 by October 2003.

Conversion of Boston and Memphis Regional Offices

The FDIC internal reorganization order, dated June 30, 2002 redesignated the Boston and
Memphis Regional Offices as area offices reporting to the New York and Dallas Regional
Offices, respectively. Based on the staffing records for these offices, there were no related
changes in office duties and responsibilities other than the elimination of the regional director
positions. The position of Area Director was created essentially to replace the deputy regional
director position.




                                                       15
We obtained staffing records for the two area offices for 2002 and 2003, as shown in Table 7
below.

Table 7: Staffing at Boston and Memphis Area Offices
                                                    Boston                                Memphis
                  Category                    2002         2003                        2002    2003
Area Director                                    1           1                           1        1
ARD                                              2           2                           2        2
Senior Case Manager                             0           1                           0         0
Case Manager                                     9          11                          12       12
Community Affairs/Specialists                    6           9                          11       13
Financial Analyst Examiners                      2           2                           2        3
Assistants                                      11          12                          11       12
   Total                                        31          38                          39       43
Source: DSC’s Staffing by Category for 2002 and 2003.


The records show that total staffing actually increased at the area offices between 2002 and 2003
despite the fact that the offices lost the designation of “regional office” and that responsibility for
most MERIT examinations had been delegated to the field offices. In our opinion, opportunities
likely exist to increase the efficiency and effectiveness of the regional structure because each of
the regional/area offices have very similar operations, including functions for risk management,
compliance, and administration.

Pilot Testing a Relationship Manager Program

On April 5, 2004, DSC implemented a 6-month pilot Relationship Manager Program for selected
state nonmember banks. This program tests “a flexible, risk-focused and risk-based approach for
supervisory activities to be conducted over a period of time, based on resources commensurate
with the perceived risks. [DSC designates] a relationship manager within a field or territory
office. Under the oversight of the … field supervisors, the relationship manager serves as the
designated point-of-contact for the respective banks in their portfolios.”14 Prior to 2003, this
function was handled by case managers at the regional offices. Full implementation of the
Relationship Manager Program would result in further delegations of regional and area office
tasks to the field offices.

Increased Use of Technology Affects the Examination Process

Significant changes in technology since 1987 have also had a major effect on the bank
examination process. In the 1990’s, DSC implemented several software applications to automate
the examination process for greater efficiency and accuracy, including:

     •   Automated Loan Examination Review Tool (ALERT) – a computer application designed
         to automate part of the loan review function and replace manual methods used for over
         60 years.


14
 Division of Supervision and Consumer Protection, Memorandum System, Transmittal No. 04-013, Relationship
Manager Pilot Program, April 2, 2004.
                                                        16
     •   General Examination System (GENESYS) – which records financial institution data and
         creates the report of examination.
     •   Examination Documentation (ED) – an automated tool designed to facilitate
         a risk-focused examination by providing a means to organize and sort written comments
         on examination analysis and decision making.

Technology has also made it possible for DSC employees anywhere in the country to access
bank financial data and information by means of the Virtual Supervisory Information On the Net
(ViSION). ViSION is a single, module-based, integrated information system mounted on the
World Wide Web (Web-based system), which greatly improves and speeds up a user’s ability to
meet changing needs. ViSION includes access to a variety of supervisory and regulatory data
sources and systems via the Information Workstation module, which allows access to viewing
Call Report 15data, Uniform Bank Performance Reports (UBPR), off-site monitoring systems,
examination and enforcement action reports, economic data, and the OCC’s examination
database.

Other technological advances have been made in off-site monitoring processes. Off-site
monitoring focuses on evaluating the financial condition and potential risks of insured depository
institutions through data collection, analysis, and review. During 1998, the FDIC implemented a
new off-site rating tool, SCOR (Statistical CAMELS16 Off-site Rating), to more effectively and
efficiently monitor risk to the banking and thrift systems. SCOR is an off-site monitoring tool
that displays statistical and qualitative information. SCOR uses quarterly Reports of Condition
and Income (Call Reports) to identify institutions that could receive a downgrade in their
CAMELS ratings at their next safety and soundness examination. To do this, SCOR uses
statistical techniques to estimate the relationship between Call Report data and the results of the
latest examination and estimates the probability of an institution being downgraded at the next
examination. Case managers use the SCOR analysis to identify the reasons for the deterioration
in any components identified by SCOR and recommend an appropriate follow-up response.
FDIC examiners review SCOR data as part of their pre-examination planning.

In 2003, the FDIC implemented FDICconnect, a secure business channel that provides the FDIC
with the capability to electronically exchange sensitive information with insured financial
institutions. The benefits of electronic transactions include increased efficiency, reduced
transaction costs, and greater customer satisfaction. For example, members of the financial
community are able to file branch applications electronically. Also, bank insiders required to
disclose changes in their stock ownership may use FDICconnect to record the changes. Banks
filing the annual “summary of deposits” survey, which contains deposit information on a branch-
by-branch basis, can also choose the electronic route. As of March 9, 2004, a total of 626
institutions had registered to use FDICconnect.


15
   Call Reports are sworn statements of a bank’s financial condition that are submitted to supervisory agencies
quarterly in accordance with federal regulatory requirements. Call Reports consist of a balance sheet and income
statement and provide detailed analyses of balances and related activity.
16
   Financial institution regulators use the Uniform Financial Institutions Rating System to evaluate a bank's
performance. Six areas of performance are evaluated and given a numerical rating of "1" through "5," with "1"
representing the least degree of concern and "5" the greatest degree of concern. The six performance areas
identified by the CAMELS acronym are: Capital adequacy, Asset quality, Management practices, Earnings
performance, Liquidity position, and Sensitivity to market risk.

                                                        17
In addition, the FDIC has begun developing a system in which institutions will be able to submit
Call Reports directly to their respective primary federal regulator through secure Internet
connections. Online submission will enable DSC staff to promptly review the reports and
resolve any questions, deficiencies, and inconsistencies with the institutions.

As discussed later in this report, a study performed by the OCC in 2002 determined that the
increased use of technology had transformed the relationship between its district (regional)
offices and its field offices. The reorganization of its district offices was dictated in large part by
dramatic changes in technology. According to the FDIC’s Deputy to the Chairman and Chief
Operating Officer, the FDIC believes that the use of technology will continue to improve
operational efficiency within both the banking industry and the FDIC. In that regard, DSC’s
business processes and the related number, location, and type of personnel needed to efficiently
and effectively carry them out should keep pace with technological issues and advances.


Effects of Consolidation on the FDIC

We recognize that, although there are fewer FDIC-insured and -supervised institutions,
consolidation in the industry has added a new dimension of risk. The average asset size of
FDIC-insured commercial banks has increased almost fivefold between 1987 and 2003 as shown
below.


Figure 6: Average Assets of FDIC-Insured Commercial Banks
                   $1,200,000




                   $1,000,000



                                                                                                                                                     $978,403

                    $800,000
  Average Assets




                    $600,000




                    $400,000
                                                                                         $433,784



                                                  $274,519
                    $200,000
                                $218,607




                          $0
                           1987     1988   1989    1990      1991   1992   1993   1994    1995      1996   1997   1998   1999   2000   2001   2002     2003
                                                                                         Year End


Source: The FDIC’s Historical Statistics on Banking.


                                                                                   18
In addition, the number of banks with assets in excess of $10 billion has increased. As shown in
the following chart, there were 59 such banks in 1992, and in 2004, that number had increased to
112, representing a 90 percent increase.

Figure 7: Number of FDIC-Insured Banks With Total Assets Exceeding $10 Billion
                    120




                    100




                    80
  Number of Banks




                    60




                    40




                    20




                     0
                     1992   1993   1994   1995   1996   1997    1998      1999   2000   2001   2002   2003   2004
                                                               Year End


Source: FDIC’s Institutional Directory of commercial banks and savings and thrifts.

Although consolidation can sometimes decrease risk through diversification, the failure of larger
size institutions can pose increased risks of loss to the FDIC’s deposit insurance funds.

Changes in Other Federal Agencies’ Regional Office Structures

In 2002 and 2003, the OCC and OTS, respectively, announced plans to realign their regional and
district office structure in response to continuing consolidation in the banking system and to take
advantage of advances in technology and changes in the way they manage their nationwide
network of examiners and field offices.

OTS realigned its regional structure into four supervisory regions, consolidating its
administrative functions in Washington, D.C., and cutting staff to meet reduced workload
demands and to achieve a balanced budget. OTS realigned its regional supervisory structure by
eliminating its central region and apportioning supervisory responsibilities for the institutions in
that region to the other regions.

Under the OCC realignment, the San Francisco and Kansas City District Offices were merged
into a new office in Denver, while the Atlanta and Dallas District Offices were consolidated in

                                                               19
Dallas. After the reorganization, the OCC had four district offices in New York, Chicago, Dallas
and Denver.

We interviewed OCC officials to obtain an understanding of the process they used in assessing
their district (regional) office organization. The process included asking a cross-section of OCC
employees to participate in a working group to assess OCC needs and develop options to meet
those needs, both today and strategically in the future. The objective of the working group was
to gather information to help the OCC evaluate whether its district office functions and locations
were best aligned with the OCC’s long-term supervisory strategy. The OCC’s structure had not
changed since 1983.

The reorganization of the OCC’s district offices was dictated in large part by dramatic changes in
technology and in the OCC’s approach to managing its nationwide network of examiners.
In 1997, the OCC reorganized its field operations to reduce a layer of management and delegate
more authority to the Assistant Deputy Comptrollers who manage the agency’s field offices.
Much of the day-to-day decision-making authority in the supervisory process was transferred
from district offices to field offices, at a closer level to the community banks supervised by the
OCC.

Also driving the realignment was the fact that national bankers told OCC in interviews that they
almost always contacted their local field office, rather than the district office, when they had
questions or issues. According to OCC officials, the realignment has not had any negative
impact on OCC’s supervision of national banks.

Further, technology had transformed the relationship between the district offices and the field
offices. The OCC is now on a common computer network that facilitates document and message
sharing. The OCC’s “Examiner View” system provides data and analytical tools to examiners
while they are working in the field. The OCC has also developed an online training system.

The OCC estimated that realignment is expected to save at least $23 million in operating costs
over the next 5 years.


CONCLUSION AND RECOMMENDATION

DSC’s regional office structure, both geographically and organizationally, has remained
essentially unchanged since 1987. Yet, DSC’s approach to supervision and the industry it
regulates have changed dramatically over the past 2 decades. According to senior DSC officials,
there are no current plans for restructuring the regional and area offices.

In a memorandum to FDIC employees on August 6, 2004, the Deputy to the Chairman and Chief
Operating Officer of the FDIC noted that the “rapid pace of industry change requires that the
FDIC periodically modify its business practices in order to continue to effectively carry out its
mission.” The memorandum further noted, among other things, that:

   •   industry consolidation will continue to decrease the aggregate number of insured,
       depository institutions for which the FDIC is the primary federal supervisor;


                                                20
   •   concentration of risk to the insurance funds in the largest banking organizations (largely
       supervised by other regulators) will grow more pronounced over time;

   •   a two-tiered banking system (mega/large vs. small/community) appears likely to emerge
       which may have operational implications for all of the FDIC’s business lines;

   •   growing complexities within the industry will require a more integrated, corporate
       approach to risk assessment and risk mitigation; and

   •   the use of technology will continue to improve operational efficiency within both the
       banking industry and the FDIC.

These changes will focus increased attention on DSC workforce planning, including staffing and
workload analyses. However, DSC’s current regional office structure leaves some unanswered
questions about the location and organizational roles and responsibilities of the current
regional/area offices. Accordingly, DSC should reassess its current regional/area office structure
to determine whether it is the most optimal alignment for accomplishing its mission in the 21st
century. Although cost reductions may not be the primary consideration in restructuring,
economies would likely be achieved as a result of consolidating and streamlining offices and
functions.

Recommendation

The Director, DSC, should initiate an independent analysis of the DSC’s regional structure to
determine the optimal means to effectively manage the division’s organizational structure and its
resources. This analysis should be performed in conjunction with staffing and workload analyses
that may be performed in support of workforce planning for the future.

CORPORATION COMMENTS AND OIG EVALUATION

On September 21, 2004, the DSC Director provided a written response to the draft report. The
response is presented, in its entirety, as Appendix IV to this report. DSC generally agreed with
the intent of our recommendation but stated that an independent study of DSC’s regional office
structure would not be advisable at this time. However, as an alternative action, the Director
agreed to evaluate DSC’s regional structure as part of DSC’s annual workforce planning and
budgeting efforts. Also, the Director noted that DSC will continue to regularly review projected
workload assumptions and address any resulting imbalances and will continue to analyze staffing
requirements and necessary skill sets. We consider the Director’s comments responsive to our
recommendation. The recommendation is resolved but will remain undispositioned and open
until we have determined that agreed-to corrective actions have been completed and are
effective. DSC’s response indicates that this process will continue with each budget cycle;
however, to provide disposition and eventual closure to the recommendation, we will assess
actions taken by DSC as they relate to DSC’s 2006 budget cycle. Accordingly, the completion
date for implementation of this recommendation will be December 31, 2005.

In addition to responding to the report’s recommendation, DSC provided comments on certain
parts of the report. Those comments follow along with the OIG’s evaluation of the comments.


                                               21
•   Regional Office Structure Changes

DSC disagreed with the report comment that DSC had not made a significant change to its
regional office structure since 1987. As evidence, DSC noted that: (1) the case manager
program was instituted in 1997; (2) Specialists had been designated in the areas of IT, Capital
Markets, Accounting, Trust, and Special Activities, including fraud and BSA; and
(3) the former regions of Memphis and Boston have been designated as area offices of Dallas
and New York, respectively.

Our report distinguishes between changes in supervisory approach, such as establishment of
the case manager program, and regional office structure changes. The central theme of this
report is that DSC’s regional office structure, both geographically and organizationally, has
remained essentially unchanged since 1987, while DSC’s approach to supervision has
changed significantly over the past 2 decades. We also point out that the organizational
hierarchy, including roles and responsibilities of regional offices, has changed little since the
1980’s. Regarding the Boston and Memphis area offices, with the exception of the
elimination of the regional director positions, these offices appear to be staffed similar to and
perform essentially the same functions as the other regional offices. Thus, we do not
consider these designations of area offices as significant structure changes.

•   More Delegations to the Field Offices

DSC agreed that it has been delegating more processes and responsibilities to the field
offices. However, DSC disagreed that the Relationship Manager Program, if implemented,
would result in even more work delegated to the field offices.

Our comment was based on a Regional Director Memorandum, dated April 2, 2004, which
implemented a 6-month pilot of the Relationship Manager Program. The pilot Relationship
Manager Program expanded the number of bank cases that could be delegated to the field by
including cases with a safety and soundness component rating of “3”as long as the composite
rating remained a “1” or a “2.” Prior to implementing the pilot Relationship Manager
Program, cases with component “3” ratings were administered out of the regional offices.

•   Other Regulatory Agency Regional Changes

DSC stated that the report seems to focus on the regional office structure changes at both the
OCC and the OTS. The Director noted that the average FDIC regional office has
responsibility for more banks than the average OCC or OTS regional office. Also, the
Director noted that due to the nature of the FDIC’s backup insurance role and relationship
with state agencies, the FDIC needs to be structured to meet its responsibilities rather than to
parallel the structure of other agencies.

We agree that the FDIC’s structure does not need to parallel other regulatory agencies.
Including the examples of other regulators was intended to show that they deemed it
necessary to reassess their office functions and locations in light of changes in the banking
industry over the past 2 decades and to ensure the best alignment for effective and efficient
supervision.


                                             22
•   Workload Implications from MERIT Examinations

The Director, DSC, stated that staffing comparisons associated with the decline in the
number of institutions and the transfer of MERIT banks to the field should reflect that the
report review, report processing, and the branch application workload associated with
“small” 1- and 2-rated banks is relatively light. The more complex and problem institutions
assigned to the regional office case managers require much more time-consuming, in-depth
analysis. Therefore, it is not a simple transfer of the number of institutions from the regional
offices to field offices that would equate to staffing requirements, but rather the complexity
and interrelationships that the regional office staff deal with, that require significantly more
hours and expertise.

We recognize that the allocation of resources is more complex than simply equating staffing
requirements to the number of banks that have been shifted to the field office for case
management. For that reason, we recommended that an independent analysis be conducted
to determine the most optimal alignment of resources for accomplishing DSC’s mission.
DSC’s agreed-to annual evaluation of its regional office structure should study the roles and
responsibilities of the regional offices in light of significant changes in the industry and the
FDIC’s supervisory approach.

•   Industry Assets

DSC stated that the “growth in industry assets increases the level of risk to the insurance
fund. Consequently, any review of regional operations and efficiencies should give
consideration to the value added by regional office staff expertise (i.e. monitoring and offsite
reviews) that mitigate potential risk.” The Director also noted that there has been an
increase in the number and asset size of specialty institutions, such as credit card banks and
that the industry trend is toward fewer, but more complex institutions.

We agree, and the report discusses the effects of consolidation in the industry. The report
also notes that the average asset size of FDIC–insured commercial banks has increased
almost fivefold since 1987, posing increased risks to the insurance funds.

•   Problem Institutions

The Director stated that although the number of problem banks has declined since 1987, the
complexity of the industry has increased significantly. Also, the Director indicated that from
1998 through 2003, the number of problem institutions and associated assets has been
increasing. The more complex nature of problem institutions requires regional staff expertise
for the ongoing monitoring of these institutions.

We agree that the industry has become more complex since the 1980’s. Regarding the
increase in problem banks from 1998 to 2003, the number increased from 92 in 1998 to 117
in 2003 – a relatively small increase in number. This increase still represents a precipitous
decline from the late 1980’s and early 1990’s when the number of problem banks ranged
from 1,000 to 2,000.



                                             23
                                                                                   APPENDIX I


                       OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of the audit was to assess DSC’s regional office structure in light of changes that
have occurred in both the FDIC and the industry it regulates. We performed the audit field work
in Washington, D.C., using information obtained from DSC and the FDIC’s Division of
Administration (DOA). We performed the audit from March through July 2004 in accordance
with generally accepted government auditing standards.

Scope and Methodology

To achieve the audit objective, we:

•   Obtained DSC staffing and budget information from year 2000 through 2003.
•   Obtained the number of FDIC-insured and FDIC-regulated financial institutions, problem
    institutions, and failed financial institutions identified from 1987 through 2003.
•   Obtained examination hours from Scheduling Hours and Reporting Package (SHARP)
    reports from years 2001 through 2003 for case managers, field office supervisors, and
    examiners.
•   Obtained telework hours since the initiation of the telework program.
•   Obtained leasing costs for years 2001 and 2003 and compared them for any reductions in
    square footage and rental costs.
•   Compared staffing at the various locations before and after structure reorganization and
    evaluated the reduction and distribution of staff in accordance with banking activities within
    the regions.
•   Obtained documentation pertaining to the FDIC’s and DSC’s strategic goals and DSC
    policies and procedures related to its workforce and office structure and functionality.
•   Reviewed process redesign initiatives.
•   Reviewed Regional Director Memoranda pertaining to the MERIT Guidelines, delegations of
    authority, and case manager delegations.
•   Interviewed some of the team members who conducted the analysis of the OCC’s
    infrastructure. Discussed the methodology and results of the analysis.
•   Obtained the OCC infrastructure realignment report.


Government Performance and Results Act
In addressing the Government Performance and Results Act, we reviewed the FDIC’s 2003
Annual Performance Plan pertaining to the FDIC’s operational efficiency and effectiveness to
accomplish its mission. To pursue increased operational efficiency and effectiveness, the FDIC
seeks new ways to improve internal management and work processes and to reduce operational
costs. To assess DSC’s performance measures as they related to the FDIC’s mission, we
obtained and reviewed DSC’s memoranda on examination processes, supervision programs, and
management programs. We read FDIC NEWS for articles pertaining to interviews with the
Director, DSC, on process redesign programs, such as MERIT. We also evaluated staffing in


                                               24
                                                                                      APPENDIX I

regional offices. DSC’s realignment of both the field offices and management structure was to
increase operational efficiency and effectiveness in management and streamline work processes
and to reduce operational costs.


Compliance with Laws and Regulations
There were no laws or regulations significant to our audit objective.


Fraud and Illegal Acts, Management Controls, and Reliance on Computer-Processed Data
The limited nature of the audit objective did not require that we assess the possibility of illegal
acts or fraud or evaluate management controls. Also, for the purposes of this audit, we did not
conduct tests to determine the reliability of computer-processed data obtained from the FDIC’s
various systems, but the reliability of these systems is subject to audit coverage by the FDIC
OIG.




                                                 25
                                                                               APPENDIX II



                 NUMBER OF FDIC-INSURED INSTITUTIONS IN 1987 AND 2003

                             Atlanta Region
State                        Number of Banks as of 12/1987 Number of Banks as of 12/2003 Change
Alabama                                  260                           162               -37.69%
Florida                                  560                           304               -45.71%
Georgia                                  427                           345               -19.20%
North Carolina                           205                           104               -49.27%
South Carolina                           123                            97               -21.14%
Virginia                                 241                           141               -41.49%
West Virginia                            225                            74               -67.11%
Total                                    2,041                         1,227               -39.88%

                             Chicago Region
State                        Number of Banks as of 12/1987 Number of Banks as of 12/2003   Change
Illinois                                 1475                           769                -47.86%
Indiana                                   461                           206                -55.31%
Kentucky                                  397                           243                -38.79%
Michigan                                  362                           178                -50.83%
Ohio                                      527                           304                -42.31%
Wisconsin                                 629                           311                -50.56%
Total                                    3,851                         2,011               -47.78%

                             Dallas Region
State                        Number of Banks as of 12/1987 Number of Banks as of 12/2003   Change
Colorado                                 498                            180                -63.86%
New Mexico                                119                            60                -49.58%
Oklahoma                                  540                           278                -48.52%
Texas                                    2051                           698                -65.97%
Total                                    3,208                         1,216               -62.09%

                             Memphis Area
State                        Number of Banks as of 12/1987 Number of Banks as of 12/2003   Change
Arkansas                                  294                           170                -42.18%
Louisiana                                 367                           170                -53.68%
Mississippi                               170                           103                -39.41%
Tennessee                                 345                           208                -39.71%
Total                                    1,176                          651                -44.64%




                                                26
                                                                      APPENDIX II



                    Kansas City Region
State               Number of Banks as of 12/1987 Number of Banks as of 12/2003 Change
Iowa                             647                           422                -34.78%
Kansas                           656                           380                -42.07%
Minnesota                        741                           486                -34.41%
Missouri                         677                           377                -44.31%
Nebraska                         451                           270                -40.13%
North Dakota                     180                           104                -42.22%
South Dakota                     149                            94                -36.91%
Total                           3,501                         2,133               -39.07%

                    New York Region
State               Number of Banks as of 12/1987 Number of Banks as of 12/2003   Change
Delaware                         51                            34                 -33.33%
Maryland and D.C.                217                           127                -41.47%
New Jersey                       279                           146                -47.67%
New York                         362                           206                -43.09%
Pennsylvania                     473                           270                -42.92%
Puerto Rico                      25                            11                 -56.00%
Total                           1,407                          794                -43.57%

                    Boston Area
State               Number of Banks as of 12/1987 Number of Banks as of 12/2003   Change
Connecticut                      153                           63                 -58.82%
Maine                             58                           40                 -31.03%
Massachusetts                    373                           209                -43.97%
New Hampshire                    100                           31                 -69.00%
Rhode Island                     20                            15                 -25.00%
Vermont                           35                            19                -45.71%
Total                            739                           377                -48.99%




                                       27
                                                                                                  APPENDIX II



                                     San Francisco Region
State                                Number of Banks as of 12/1987 Number of Banks as of 12/2003 Change
Alaska                                                 15                                     7                      -53.33%
Arizona                                               62                                    50                       -19.35%
California                                            691                                   318                      -53.98%
Hawaii                                                28                                      8                      -71.43%
Idaho                                                 30                                     18                      -40.00%
Montana                                               180                                   80                       -55.56%
Nevada                                                23                                    37                        60.87%
Oregon                                                71                                    38                       -46.48%
Utah                                                  68                                    64                        -5.88%
Washington                                            135                                   100                      -25.93%
Wyoming                                               113                                   46                       -59.29%
Total                                                1,416                                  766                      -45.90%

                                     Other Areas
State                                Number of Banks as of 12/1987 Number of Banks as of 12/2003 Change

American Samoa                                         1                                     1                     0.00%
Federated States of Micronesia                         1                                     1                     0.00%
Guam                                                   1                                     3                   200.00%
Virgin Islands                                         1                                     2                   100.00%
Total                                                  4                                     7                    75.00%

                                     Grand Total
Number of Banks as of 12/1987        Number of Banks as of 12/2003                      % Change
              17,343*                                   9,182                              -47.06%
    Source: FDIC’s Historical Statistics on Banking, Commercial and Savings Institutions Bank Reports.
    *The number of banks listed here as of 1987 differs by two banks in comparison to the number shown in Figure 1
    on page 6 of this report due to the compilation of statistics by the FDIC.




                                                           28
                                                                                 APPENDIX III


                      CHRONOLOGY OF SIGNIFICANT EVENTS

The following chronology describes significant events in DSC’s history, including: risk-focused
and compliance examinations, management structure, and technology consistent with the FDIC’s
corporate goal to more effectively supervise and serve the rapidly changing financial industry.

     DATE                                                  EVENT
December 1992         Implemented the Offsite Program for Large Insured Depository
                      Institutions (LIDI) to introduce a program of integrating regular off-site
                      monitoring into the FDIC's over-all supervisory effort.
April 1996            Automated Loan Examination Review Tool (ALERT) implemented. ALERT
                      is a computer application designed to improve the loan review function in
                      bank examinations. ALERT automated the loan selection and transcription
                      process and replaced manual methods used for over 60 years.
April 1997            DSC implements the case manager program.
October 1, 1997       The FDIC, FRB, and Conference of State Bank Supervisors implement the
                      Risk-Focused Examination Process. This approach assesses an institution’s
                      risk by evaluating its processes to identify, measure, evaluate, and control risk.
                      The FDIC developed 10 examination modules to focus on risk management
                      and to help establish the scope of the examination. The modules gave
                      examiners a means to organize and sort written comments on examination
                      analysis and decision making.
June 1998             The GENESYS Version 1.0 implementation and training plan began.
                      GENESYS is an integrated software application for recording financial
                      institution data and creating the ROE.
August 29, 2000       The Large State Nonmember Bank On-site Supervision Program was
                      implemented.
November 2000         Senior Division of Supervision (DOS) managers from the regions and
                      headquarters and the DOS Director initiated Process Redesign I to identify
                      actions needed to proactively prepare for the future and to examine existing
                      processes to improve efficiency. DOS conducted the detailed evaluation of its
                      processes and procedures at its field and regional offices and headquarters.
March 31, 2002        Maximum Efficiency, Risk-Focused, Institution-Targeted (MERIT)
                      Guidelines were issued. “Well-capitalized” banks with a “1” or “2” rating and
                      total assets of $250 million or less were eligible for MERIT Guidelines.
June 30, 2002         The Division of Supervision and the Division of Compliance and Consumer
                      Affairs were restructured into the current DSC. The Boston and Memphis
                      regional offices were converted to area offices in accordance with the Federal
                      Register, Volume 67, Number 230.




                                               29
                                                                             APPENDIX III


July 2002            The FDIC created the Consumer Response Center (CRC), which is
                     headquartered in the Kansas City Regional Office. CRC logs data of “3,” “4,”
                     and “5” rated institutions for reports issued to the United States Congress,
                     FDIC’s Board of Directors, and other regulatory, state, and federal agencies.
                     CRC specialists respond to consumer, financial institution, and advocate
                     inquiries and complaints.
August 15, 2002      DSC announced 52 newly selected field supervisors and the closing of one
                     satellite office and merged six field offices into three.
September 14, 2002   The Dallas Field Office moved to the Dallas Regional Office.
September 30, 2002   The Statesboro, Georgia, Satellite Office was closed. Its workload and
                     jurisdiction were divided between the Norcross and Albany, Georgia, Field
                     Offices.
October 2002         DSC launched the Dedicated Examiner Program and assigned eight DSC
                     examiners to the country’s largest banking organizations. The examiners
                     monitored operations at the institutions to which they were assigned and
                     worked with the federal financial regulators who were the primary supervisors
                     of the institutions.
October 31, 2002     The Orlando, Florida, Field Office was closed.
November 29, 2002    The FDIC’s June 30, 2002 internal reorganization rule was effective in the
                     Federal Register, Volume 67, Number 230.
January 1, 2003      DSC realigned the responsibilities of risk management case managers in
                     regional offices and field office supervisors. Field office supervisors and
                     supervisory examiners assumed the following duties for certain low-risk
                     institutions: reviewing and processing ROEs; processing and approving
                     certain applications; processing general correspondence; and conducting
                     off-site reviews. These delegations of authority were applicable for MERIT-
                     classified banks that did not transcend geographic boundaries of regional
                     offices and did not have assets exceeding the signing authority for field
                     supervisors.
June 30, 2003        DSC revised compliance examination procedures to combine the risk-based
                     examination process with an in-depth evaluation of an institution’s compliance
                     management system. Under this approach, examiners were able to devote
                     more attention to institutions requiring additional regulatory scrutiny.
                     Identification of the causes of compliance deficiencies and violations was
                     intended to help institution management to improve their operations and be
                     proactive in consumer compliance responsibilities.
December 8, 2003     The FDIC initiated the FDICconnect program.
January 14, 2004     The FDIC implemented the Fair Lending Examination Specialist Program to
                     improve the quality of examinations; considerably reducing fair lending
                     examination processing time; moving decision making authority to the field in
                     keeping with corporate objectives; and reducing workload in the section. A
                     specialist was appointed at each regional and area office.
January 31, 2004     The MERIT-eligible threshold was raised to include institutions with up to
                     $1 billion in assets.
April 5, 2004        The FDIC began a pilot Relationship Manager Program for selected state
                     nonmember banks. The pilot program continues through September 30, 2004,
                     at which time it could be made permanent. The program explores alternatives

                                            30
                                                                            APPENDIX III

                  to point-in-time examinations by testing a flexible, risk-focused and risk-based
                  approach that allows for supervisory activities to be conducted over a period
                  of time, based on allocation or resources commensurate with perceived risk.
                  The program eliminates existing examination frequency schedules for other
                  types of examinations such as compliance, IT, and trust examinations.
May 31, 2004      The Overland Park Field Offices were moved to the Kansas City Regional
                  Office. The Manhattan and New York East Offices were merged.
August 31, 2004   The FDIC announced the date of the timeline implementation for institutions
                  to submit Call Report data directly to the Federal Financial Institutions
                  Examination Council (FFIEC) through secure Internet connection (the date
                  was subsequently changed to sometime in 2005).




                                          31
                       APPENDIX IV



CORPORATION COMMENTS
                       APPENDIX IV
CORPORATION COMMENTS




          33
                       APPENDIX IV
CORPORATION COMMENTS




          34
                                                                                                                                                              APPENDIX V




                                                      MANAGEMENT RESPONSE TO RECOMMENDATIONS

     This table presents the management response on the recommendation in our report and the status of the recommendation as of the date of report
     issuance.

                                                                                                                                                 Open
                                                                                                                   a                      b
                                                                    Expected             Monetary       Resolved:        Dispositioned:           or
          Corrective Action: Taken or Planned/Status             Completion Date         Benefits       Yes or No          Yes or No            Closedc
          DSC will evaluate its regional structure as
          part of DSC’s normal annual workforce
          planning and budgeting efforts. Also, DSC             December 31, 2005           N/A             Yes                 No                Open
          will continue to regularly review projected
          workload assumptions and address any
          resulting imbalances and will continue to
          analyze staffing requirements and necessary
          skill sets.

     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                    (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
35




                    (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                        management provides an amount.
     b
      Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
     implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
